U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 24, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Devaron Antoine Love v. United States of America,
S.Ct. No. 20-7030

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 29,
2021, and placed on the docket on February 3, 2021. The government’s response is due on
March 5, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 5, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7030
LOVE, DEVARON ANTOINE
USA

ALEXANDRIA DARBY
OFFICE OF THE FEDERAL PUBLIC DEFENDER
200 CLINTON AVENUE, WEST
SUITE 503
HUNTSVILLE, AL 35801
256-684-8700
ALEX-DARBY@FD.ORG

